                          UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




        Information Technology
         Memorandum Report


Review of the Information
 Security Program at the
  Department of State

Report Number IT-A-04-08, September 2004




                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED
        Section 3545 of the Federal Information Security Management Act of 2002 (FISMA)1
directs each agency to conduct an annual independent evaluation of its information security
program and practices. FISMA provides a comprehensive framework for establishing and
ensuring the effectiveness of controls over information technology (IT) that support federal
operations and assets, and it provides a mechanism for improved oversight of federal agency
information security programs. Also, Office of Management and Budget (OMB) implementation
guidance for FISMA requires the Office of Inspector General (OIG) to assess the development,
implementation, and management of the agency-wide plans of action and milestones (POA&M)
process and to focus on performance measures. In response, OIG performed an independent
evaluation of the information security program and practices of the Department of State
(Department).

       The objective of this review was to assess the overall effectiveness of the Department’s
information security program. More details on the scope and methodology for this review are
discussed in Appendix A. OIG received comments from the Department and incorporated them
as appropriate within the body of the report. Comments from the Department are reprinted in
Appendix B.

RESULTS IN BRIEF
        OIG found that the Department has taken a number of actions directed at improving the
effectiveness of the Department’s information security program since last year’s independent
evaluation. For example, the Department implemented a bureau-level Department FISMA
scorecard. This performance scorecard, shared internally with senior management, is a one-page
snapshot of a bureau’s progress in information assurance. The Department has deployed an
automated application tool to be used by the bureaus in an effort to automate the FISMA
reporting process. The automated tool is designed to allow the Department to standardize web
management of self-assessments, POA&Ms, and performance measures. Further, the
Department developed a web-based training tool that is used to meet the requirement that all
employees receive annual IT security awareness briefings. By using this web-based tool, the
Department has the ability to track completion of annual awareness briefings electronically for
each employee worldwide.

        The Department has improved its POA&Ms process at headquarters since last year’s
evaluation. Restructuring of the certification and accreditation process, automation of FISMA
data submissions, and the development of a draft POA&Ms process guide have been
instrumental in helping the Department improve identification of its IT security vulnerabilities
and address these issues through the POA&Ms process. In addition, the Department undertook
an 18-month project to certify and accredit its major applications and general support systems.
As of the first week in September, the Department had processed and approved 92 percent of the
general support systems and major applications included in the project. The 18-month project
has been coordinated with OMB, and has moved the Department constructively forward to begin
meeting FISMA requirements in a key area where it previously had been failing.




1
    Pub. L. No. 107-347, Title III, Sec. 301(b)(1); 44 U.S.C. 3545.
                                                                                                  2
        However, OIG found several key areas that still require senior management attention.
The Department has not adequately coordinated and shared information with relevant
Department parties, such as Critical Infrastructure Protection (CIP) officials, involved in
identifying and addressing IT security vulnerabilities for the POA&Ms process. At the time of
this evaluation, the Department had not developed procedures to ensure that IT security findings
were being addressed in the POA&Ms process nor had it extended the process to include its
domestic and overseas sites.

        Further, the Department inventory of IT systems remains incomplete and needs to be
updated by the responsible Department officials, as required by FISMA. Whereas 92 percent of
the general support systems and major applications included in the Department’s 18-month
systems authorization project completed certification and accreditation, the total universe of
applications and systems for the Department has still not been identified fully. As a result, the
percentage of systems and applications that have been certified and accredited for the
Department are substantially less than the 92 percent reported for the project. Also, the
Department lacks procedures to identify the number of contractor services or facilities
performing work for the Department using their own systems or connecting to the Department
networks. The Department’s patch management program needs improvement. Patch
management roles and responsibilities still remain unclear to post officials, and posts are unsure
of the procedures for installing patches or obtaining assistance.

        The Department continues to fragment responsibility for information systems security
and to date has developed no effective coordinating or monitoring mechanism to ensure that
delegated responsibilities are effectively accomplished. Further, the implementation of
information security at overseas posts requires increased Department attention.

BACKGROUND
        Information security is imperative to any organization that depends on information
systems and computer networks to carry out its mission. The expansion in computer
interconnectivity and the rapid increase in the use of the Internet are changing the way the
government, private sector, and much of the world communicate and conduct business.
However, without proper safeguards, these developments pose serious risks that make it easier
for people and groups with malicious intent to intrude into inadequately protected systems and
use such access to obtain sensitive information, commit fraud, disrupt operations, or launch
attacks against other computer networks and systems. Further, the number of people with
computer skills is increasing, and intrusion techniques and tools are readily available and
relatively easy to use.

        Faced with continued concerns about information security risks to the federal
government, Congress passed and the President signed the FISMA into law in December 2002.
The new law recognizes the highly networked nature of the current federal computing
environment and provides for a comprehensive framework for ensuring the effectiveness of
information security controls over information resources that support federal operations and
assets. FISMA requires agencies, at a minimum, to develop and maintain controls to protect
federal information and information systems; improve oversight of federal agency information
security programs; develop an agency-wide information security plan; incorporate information
security principles and practices throughout the life cycles of the agency’s information systems;
and ensure that the information security plan is practiced throughout all life cycles of the


                                                                                                     3
       agency’s information systems.

        FISMA also assigns the agency’s Chief Information Officer (CIO) the authority and
responsibility to administer key functions under the statute, including designating a senior
agency information security official (CISO) who possesses professional qualifications and
reports to the CIO and assists the CIO in developing and maintaining an agency-wide
information security program; developing and maintaining information security policies,
procedures, and control techniques to address all applicable requirements; training and
overseeing personnel with significant responsibilities for information security; and assisting
senior agency officials with their responsibilities.

         Finally, in addition to a number of other provisions, FISMA requires each agency to have
performed an independent evaluation of its information security program and practices. The
OIG or the independent evaluator performing a review may use any audit, evaluation, or report
relating to the effectiveness of the agency’s information security program to do so. The agency
is required to submit the independent evaluation, along with its own assessment, to OMB as part
of its annual budget request.

REVIEW FINDINGS


             Department’s Progress in Addressing Information Security

Enhanced Performance Measures

       Performance measures are a key requirement of FISMA. Since last year’s evaluation, the
Department has made significant progress in enhancing its process for developing performance
measures. For example, the Department implemented a bureau-level Department FISMA
scorecard. This performance scorecard, shared internally with senior management, is a one-page
snapshot of a bureau’s progress in information assurance. Ratings for performance measures are
based on information provided by the bureaus on the POA&Ms process, certification and
accreditation process, and training statistics.

        The Department has deployed an automated application tool to be used by the bureaus in
an effort to automate the FISMA reporting process. The tool, which is in the pilot stages, is a
commercial product that the Department modified to fit the FISMA reporting needs. The tool is
expected to be used by the Department by FY 2005. The automated tool will allow the
Department to standardize web management of self-assessments, POA&Ms, and performance
measures. Further, the tool will allow the Department to identify weaknesses and performance
metrics, as well as generate FISMA and other legislative reports. These initiatives have
addressed a previous OIG recommendation for establishing performance measures and linking
them to the POA&Ms process.




                                                                                                 4
Effective Information Security Management Procedures
        OIG selected five systems using a subjective sample to assess the Department’s
information security management procedures. The systems reviewed are used for system
operations by various bureaus within the Department, including the Bureau of Administration’s
Employee Services Center (ESC), Bureau of Consular Affairs’ Passport Information Electronic
Records System (PIERS), Bureau of Diplomatic Security’s (DS) Report Management Subsystem
(RMS), Bureau of Human Resources’ Global Employment Management System (GEMS), and
Office of Medical Services’ Electronic Medical Record (EMR). The OIG assessment pertained
to management and operational controls and focused on security control reviews, personnel
security, contingency planning, data integrity, security awareness, training, and education.

        As shown in Table 1, the five systems have completed the certification and accreditation
process. All five had a security-level determination, documented risk assessments, and tested
security controls. Also, the selected systems had a security plan in place. For the certification
and accreditation process, system owners complied with the Department’s Systems
Authorization Process Guide and System Authorization Plan, approved in May 2003 and March
2003, respectively. The guides provide information on the steps that should be taken by the
system owners and the required documentation for a system to be granted accreditation.


      Table 1: Major Information Systems Results for Key System Security Elements

                                                 Security-                  Certified       Tested
                                      Risk                    Security
System                                             Level                      and          Security
                                   Assessment                  Plans
                                                Determined                 Accredited      Controls
ESC                                   Yes           Yes          Yes          Yes            Yes
PIERS                                 Yes          Yes           Yes          Yes               Yes

RMS                                   Yes          Yes           Yes          Yes               Yes

GEMS                                  Yes          Yes           Yes          Yes               Yes

EMR                                   Yes          Yes           Yes          Yes               Yes


         Further, Table 2 shows that all five systems have a trained information systems security
officer (ISSO) assigned. A further analysis of the ISSO program is discussed later in the report.
The systems also have documented IT system security self-assessments that were performed
using the National Institutes of Standards and Technology (NIST) Special Publication 800-26 as
criteria. The systems also had updated and tested contingency plans, which were completed as
part of the certification and accreditation process.


          Table 2: Results for Training, Planning, and Self-Assessment Elements

                                                             Contingency Plans
                                                Trained                                  Security
 System                                                      Developed, Tested,
                                                 ISSO                               Self-Assessments
                                                               and Updated
 ESC                                             Yes                Yes                   Yes
 PIERS                                           Yes                Yes                   Yes
 RMS                                             Yes                Yes                   Yes
 GEMS                                            Yes                Yes                   Yes
 EMR                                             Yes                Yes                   Yes
                                                                                                       5
       OIG’s further review of each of these systems revealed the following.



                 Employee Services Center

        ESC, managed by the Bureau of Administration, is the primary check-in and checkout
point for all transferring and in-transit Foreign Service officers and civil service employees on
excursion tours. OIG found that the system received full accreditation to operate in March 2004
for 36 months. As part of the certification process, the bureau completed the system security
plan and the contingency plan. The bureau completed the NIST self-assessment and the security
controls for the system, and contingency plans were tested as the system went through the
certification and accreditation process.

                             Passport Information Electronic Records System

       PIERS, within the Bureau of Consular Affairs, is an intranet-based interface for
recording, tracking and managing the core data related to passport issuance. PIERS operates on
the Department’s OpenNet network and offers users from both domestic bureaus and the
overseas posts the ability to query information pertaining to passports and vital records as well as
to request original copies of the associated documents. PIERS users are able to create, amend,
and print vital records. The systems provide both case-based and user-based views of
information as well as support for electronic tracking and reporting of work processes.

       The bureau completed a self-assessment on the system using NIST guidance and tested
and evaluated the security controls. In addition, the system security and contingency plans for
PIERS were updated and tested as part of the certification and accreditation process. The system
received full accreditation to operate for 36 months in April 2004.




           Report Management Subsystem

       RMS, managed by DS, is a comprehensive software suite that provides an efficient
means for the bureau to conduct background investigations on individuals referred for security
clearances and suitability reviews. DS conducted and documented a risk assessment and
developed and tested a system security plan and contingency plan as part of the certification and
accreditation process. DS also tested security controls. RMS received full accreditation to
operate for 36 months in August 2003.



             Global Employment Management System

       GEMS, managed by the Bureau of Human Resources, is the primary human resources
application and centralized personnel database for managing the Department’s human resources.
The application is based on a suite of applications used for processing all Department
employees’ position management transactions. OIG found that the bureau completed the NIST
                                                                                                  6
self-assessment as the system went through the certification and accreditation process. In
addition, the bureau updated and tested security and contingency plans. GEMS received full
accreditation for only 18 months in December 2003 because it will be completing the
certification and accreditation process once a system upgrade is completed.




         Electronic Medical Records

EMR, within the Office of Medical Services, establishes the essential medical record
infrastructure that the Department must have to provide quality health care services for all U.S.
foreign affairs agencies worldwide. The EMR provides a single authoritative source of
information that is readily retrievable for patient care, medical evacuations and hospitalizations,
medical clearance decisions, medical record release actions, and medical program planning and
management. It provides a standard, rapid, and secure way to enter new medical record
information into a Department patient’s medical record.

        OIG found that the bureau completed the NIST self-assessment as the system went
through the certification and accreditation process. In addition, the application has updated and
tested security and contingency plans. EMR received full accreditation for 18 months in March
2004 and will be recertified and accredited in 2005 after a planned upgrade is completed.

Improved Security Awareness and Role-Based Training
        The Department divides training into security awareness and role-based activities.
Security awareness briefings help to ensure the confidentiality, integrity, and availability of
Department information by guaranteeing that employees with access to information systems
have been made aware of how to protect the Department’s information. Role-based training is
designed to provide specific training to employees that have been identified as having significant
security responsibilities.

       Security Awareness Training

        Since September 2003, the Department has made significant progress in ensuring that
employees receive security awareness training domestically and overseas. The Department
developed a web-based training tool that is used to meet the requirement that all employees
receive annual IT security awareness briefings. With the approval of the Department CISO,
elements of DS and Bureau of Information Resource Management Office of Information
Assurance (IRM/IA) worked with the Office of Distance Learning at the Foreign Service
Institute to take advantage of its distance learning system. By using this web-based tool, the
Department has the ability to track completion of annual awareness briefings electronically for
each employee worldwide. Training is tracked at every step from registration through
presentation and assessment. The training record expires annually and must be renewed. As of
the beginning of September 2004, more than 49,000 of the Department’s 49,709 full-time
employees, Foreign Service nationals, and contractors (approximately 99 percent) had taken the
online security awareness training. The CISO, supported by CIO, has made annual awareness
training mandatory and ensures integration of results into the annual FISMA report for the
Department.


                                                                                                      7
        The Department’s online security awareness briefings do not address peer-to-peer file-
sharing policies as suggested by OMB. These policies are discussed with employees only during
live security awareness briefings. The Department plans to include file-sharing policies, among
other relevant policies, in future security awareness briefings.

       Role-Based Training

        The Department has also made progress in ensuring that employees receive training
based on their respective IT security roles. The DS training center has a total of seven automated
information system security-related courses and is developing additional courses tailored for
specific IT security responsibilities. The CISO approves training curricula for all IT security
training courses. For example, a new training course is being developed for software application
developers, and it is expected to be ready in FY 2005. Further, other proposed training courses
for specific security responsibilities are in preliminary discussions with Department
representatives.

        The Department identified 1,319 employees with significant IT security responsibilities.
Of the employees identified, approximately 51 percent, or 673 employees, had received
specialized training. As illustrated in Figure 1, this is an increase from last year’s reported
numbers of 819 employees out of 2,800, approximately 29 percent, attending the courses.

Figure 1: Role-Based Training Taken by Department IT Security Employees


                    Fiscal Year 2003              Fiscal Year 2004
                                       29%

                                                 49%                 51%

                    71%

                          N=2,800                       N=1,319

                                       number    number not
                                       trained   trained




       The decrease in the number of employees with significant IT security responsibilities in
FY 2004 is attributed to the Department’s reassessing job responsibilities for those employees
reported in FY 2003. The Department credits enhanced reporting of performance measures,
implementing the FISMA scorecard, and increasing awareness on training as reasons for the
increase in role-based training attendance for this fiscal year.




                                                                                                   8
                   Improvements Needed in Addressing
                   Information Security

Plans of Action and Milestones Process Needs Improvement
        The Department has improved its POA&Ms process since last year’s evaluation.
Restructuring of the certification and accreditation process, automation of FISMA data
submissions, and the development of a draft POA&Ms process guide have been instrumental in
helping the Department improve identification of its IT security vulnerabilities and address these
issues through the POA&Ms process. In addition to these efforts, the Department must ensure
better coordination and sharing of information with relevant Department components involved in
identifying and addressing IT security vulnerabilities.

        For example, IRM/IA serves as the central point for collecting, analyzing, managing, and
reporting POA&Ms information to OMB. The current process for collecting POA&Ms data
requires each bureau’s program officials and system owners to identify all systems and programs
for which they are responsible. These systems and programs are approved through the systems
authorization process, which includes certification and accreditation. As part of the systems
authorization process, bureau officials conduct self-assessments of their systems and programs to
identify vulnerabilities, for which POA&Ms are created to remediate the weaknesses. Further,
when IT security vulnerabilities are identified as a result of IRM/IA’s verification during the
certification and accreditation process, external and internal audits, evaluations and inspections,
or CIP assessments, bureau officials are responsible for creating POA&Ms to mitigate the
vulnerabilities.

        In an effort to improve the process for creating, analyzing, and reporting POA&Ms
information to IRM/IA and addressing FISMA reporting requirements, the Department
developed a tool—State Automated FISMA Information Reporting Environment (SAFIRE)
system. Bureau officials are currently using Excel Workbooks to create and submit their
POA&Ms data to IRM/IA on a quarterly basis. With the SAFIRE system, bureau officials in FY
2005 will be able to create new POA&Ms and modify existing ones as needed. This process
ensures that POA&Ms data are current and up-to-date. In addition, the SAFIRE system is
connected to capital planning—exhibits 300 and 53 budget submissions—through a unique
identifier. IRM/IA officials reported that having this identifier allows for the generation of
reports to OMB that are indicative of how bureaus are performing. Officials in IRM/IA
conducted workshops and also provided individual training for bureau officials at domestic
locations on how to prepare POA&Ms in the Excel Workbooks, and relied on the regional
bureaus to share training information with overseas staff. IRM/IA officials are currently training
Department employees on the SAFIRE system and anticipate completing training by the first
quarter of FY 2005, at which time the bureaus and posts will be required to use SAFIRE for data
submissions.

        Regardless of the efforts described above, the Department needs to ensure better
coordination and sharing of information with relevant Department components involved in
identifying and addressing IT security vulnerabilities. Specifically, CIP officials need better
coordination and sharing of information with IRM/IA to report and track remediation of IT
security vulnerabilities discovered during CIP assessments, i.e. Vulnerability Assessment
                                                                                                  9
Reports. For example, CIP officials reported to OIG that they notify bureau officials of
vulnerabilities found during assessments, but have only recently begun to share relevant IT
security vulnerability findings with IRM/IA. As a result, the Department does not know if
POA&Ms were generated to address all identified IT weaknesses.

       OIG sent a questionnaire to bureau executive directors requesting information on creating
POA&Ms based on external and internal audits, evaluations, and inspections. Results from the
questionnaire and analysis of information provided by CIP indicate that no POA&Ms were
created as a result of an IT security vulnerability identified by CIP officials during its last
Vulnerability Assessment Report.

        The Department needs to develop procedures to ensure that IT security findings and
recommendations from external and internal reviews are being addressed in the POA&Ms
process. Bureau representatives OIG spoke with were not aware of IT security vulnerabilities
identified for their respective posts during OIG and Regional Computer Security Office
inspections in FY 2004. Also, several bureau representatives responded that they were unaware
of the type of information to be provided and the responsibilities of the bureaus and IRM
officials in ensuring that POA&Ms, if needed, are being done.

       Recommendation 1: The Office of Information Assurance and Critical Infrastructure
       Protection officials should conduct regular meetings to provide a forum for the sharing of
       information on information technology security vulnerabilities identified in Vulnerability
       Assessment Reports.

       Department Response: The Department concurs with the recommendation. The
Department’s Cyber Security Program Management Plan will establish and implement an
information governance structure that contains cross-bureau working-level teams called
Information Security Integrated Teams composed of experts and supervisors in each of the main
information security areas, including CIP.

      OIG Comments: OIG accepts the Department’s response and considers this
recommendation resolved.

       Recommendation 2: The Office of Information Assurance should develop procedures to
       ensure that information technology security findings and recommendations from external
       and internal reviews are being addressed in the plans of action and milestones process.

        Department Response: The Department concurs with the recommendation. The
Department’s Information Security Steering Committee will be charged with providing a
comprehensive, collaborative information security management structure. In FY 2004,
the Department focused primarily on the identification and remediation of security
findings at the system level. Subsequently, the Department is developing a
communication plan to inform program officials about what should be addressed in their
respective POA&Ms. The scope would include any recommendations and guidance from
recognized federal oversight entities, including OIG, GAO and OMB.

      OIG Comments: OIG accepts the Department’s response and considers this
recommendation resolved. However, OIG reiterates that the communication plan to inform
program officials of items to be addressed in their respective POA&Ms must include
recommendations and guidance from GAO, OMB, OIG and other Department entities.

                                                                                              10
       Recommendation 3: The Chief Information Officer should inform regional bureaus and
       overseas posts on the responsibilities for creating remediation for identified information
       technology security vulnerabilities and the type of information required for submission to
       the Department.

       Department Response: The Department concurs with the recommendation. The
Department’s cyber security communication efforts are ongoing and will continue to
include meetings, notices, memoranda, telegrams, and workshops.

      OIG Comments: OIG accepts the Department’s approach to address the
recommendation, and considers this recommendation resolved.

Inadequate Inventory of IT Systems
        The Department has not adequately ensured that all IT systems have been identified and
included in its inventory. FISMA requires that the CIO identify information systems that support
the operations and assets of the Department. Using definitions provided by OMB, the
Department identifies each system either as a major application, general support system, other
application, or retired system. The Department has made progress in updating its inventory of
applications and systems domestically. For example, the Department obtains information via
funding or connection requests, during the certification and accreditation process, and from
Information Technology Change Control Board requests. The Department has initiated site
inspections overseas to update its inventory of applications and systems. At the time of this
report, the Department had visited 59 overseas locations as part of its site authorization process.
However, the Department has more than 290 overseas locations, all of which will not be covered
during a single annual reporting period. As a result, the Department does not know the extent of
its applications and systems. The Department is currently reviewing the site authorization
process responsibility, which is explained later.

       The Department needs to address the number of applications and systems reported in the
IT Application Baseline (ITAB). ITAB officials are reporting almost 500 applications and
systems in the Department, while IRM/IA in its systems authorization process reports over 170
applications and systems. The Department recognizes that the two reports of applications and
systems need to be closer, and have begun to address this issue by conducting working group
meetings. With representatives of IRM/IA and ITAB, the working group meetings are
conducted to ensure that all applications and systems are being reported to the Department and
being vetted through the certification and accreditation process.

       Recommendation 4: The Bureau of Information Resource Management should review
       the applications and systems reported in the information technology application baseline
       and determine those to be included in the Department’s inventory.

        Department Response: The Department concurs with the recommendation. The
ITAB partnership is led by IRM, and IRM offices make up the majority voting
membership. The current information contained in ITAB is being scrubbed and validated
by the data owners.

       OIG Comments: OIG accepts the Department’s response and considers this
recommendation resolved. The recommendation will be closed when OIG receives the
Department’s inventory after its review of the applications and systems reported in the
information technology application baseline.
                                                                                                11
Inadequate Compliance and Identification of Contractor Facilities and
Services
        The CIO and Department program officials have not ensured that contractor-provided
services or services provided by another agency for their program and systems are adequately
secure and meet the requirements of FISMA, OMB policy, and NIST guidance. Although DS
has approved 26 contractor services and facilities for connection to OpenNet Plus, the
Department has not identified the full universe of contractor facilities and services and, thus, is
not in compliance with FISMA requirements. OIG found that adequate processes and
procedures have not been defined and implemented to verify whether those contractor facilities
and services are being carried out securely. While the Department identified contractor
organizations that are connected to the Department, further analysis needs to be done for those
contractor facilities and services that use their own systems to perform work for the Department.
The universe of contractor facilities and services is unknown and potentially significant in
number. The CIO has the responsibility to identify information systems used or operated by a
contractor for the Department, in accordance with FISMA, and therefore, this issue must be
addressed.

       Recommendation 5: The Chief Information Officer should ensure that all contractor
       services and facilities performing work for the Department are identified and are in
       accordance with established information security requirements.

        Department Response: The Department concurs with the recommendation. The OIG,
like IRM/IA and DS/SI are grappling with defining the implementation of this FISMA
requirement. The three offices have agreed to continue meetings to determine an agreed course
of action. In the interim, the Department has identified the number of contractor facilities and
those facilities that exchange data with Department systems. Furthermore, the CISO has polled
other agencies for their practices in this area.

       OIG Comments: OIG accepts the Department’s response and considers this
recommendation resolved. The OIG has an advisory role in assisting the Department in defining
the implementation of this FISMA requirement, and the Department has the sole responsibility
for ensuring that contractor services and facilities are properly being identified.

Patch Management Needs Improvement
        The Department’s patch management program needs improvement. Specifically, the
Department’s delegation of patch management roles and responsibilities is unclear. Responsible
officials within the Department are not certain who has the responsibility to enforce the
installation of patches. Further, bureaus and overseas posts are not certain of the timeframe and
importance for installing patches with different levels of criticality.

        During inspections in FY 2004, OIG identified six locations where patch management
was not performed adequately. Two inspections showed the posts did not document patch
installations, and another post was not receiving notification from the Department of recently
issued patches and was unaware of where to go within the Department to locate information.
Another post was unaware of its responsibilities for patch management as outlined in the
Enterprise Network Management (ENM) Patch Management Standard Operating Procedures,
while another post was completely failing in implementing patch management procedures.

                                                                                                 12
        A review of helpdesk inquiries sent to the IRM Info Center illustrated inadequate patch
management implementation. Of the recorded events that took place from May 2003 through
May 2004, there were 18 requests to be added to the patch management notification list, eight
incidents of incorrect installation of patches, and four requests for determining the location of
recent patches. In 2004, in a selective sampling of the Regional Computer Security Officer
reports on overseas posts, OIG found several cases in which necessary system patches were not
installed. In each of these reports, DS officials recommended corrective action to prevent
possible disruptions in post operations.

         The Department’s delegation of patch management roles and responsibilities are unclear.
Specifically, it is unclear within the Department who has the responsibility to enforce installation
of patches. OIG had discussions with Department officials and found confusion about which
office was responsible for the enforcement of patch installations. ENM officials said that
IRM/IA is responsible for enforcing the installation of patches, while IRM/IA disagreed and said
ENM is responsible. Not installing patches appropriately places the Department at significant
risk when hackers take advantage of known vulnerabilities. The Department must ensure that
the relevant parties are performing their duties to prevent possible network vulnerabilities.
Further, the Department needs to provide and communicate information on the importance of
installing patches to overseas sites.

         The Department needs to emphasize clearly the importance of each patch. Although the
ENM web site does a relatively good job of defining the different risk levels associated with each
patch as well as stating that each patch is mandatory, it does not state the timeframe within which
sites must install each patch. During the FY 2004 inspection cycle, OIG found that information
management staff or regional security officers who were performing ISSO duties were not
installing those patches classified as low risk, but only installing high and critical patches. OIG
also found that the number of patches being applied during calendar year 2004 was extremely
low. Information contained in the daily Department Computer Incident Response Team briefing
showed a low percentage of high- and medium-risk patches being applied. The percentage of
affected machines that have had the patch applied ranged from as low as 19.05% and only as
high as 45.55%. These statistics raise concern for several reasons. First, the due date for
installation had passed for all eight patches that were classified as primarily high- and medium-
level patches. Also, numerous machines were left vulnerable to threats that those patches would
have addressed.

        The Department has created a Statement of Procedures, which outlines a five-phase life-
cycle process, including Discovery, Test, Delivery, Validation, and Compliance for the Patch
Management Program as required by NIST 800-40 and 5 FAM 800. In the Discovery phase, the
vendor announces update patches. The patch management office, in conjunction with the United
States Computer Emergency Readiness Team (US-CERT) officials, analyzes the patch and
determines the level of vulnerability and critical threat based on the Department’s baseline.
During the Test phase, ENM officials assign each patch a level of risk (i.e., critical, medium,
low, or none) based on the level of impact it could have on the network and likelihood of
occurrence. As part of the Delivery phase, officials post patches onto the Patch Management
web site and send notifications to the IRM Info Center for action. The IRM Info Center
distributes bulletins to the Department. Patches are then sent to bureaus and posts via the
Systems Management Server (SMS) or compact disks. In the Validation phase, IRM uses SMS
to identify successful and unsuccessful patch installations. Unsuccessful installations are
reviewed by IRM officials to determine the cause. Finally, IRM/IA receives a copy of the
validation report during the Compliance phase. However, no action is taken against posts that do
not comply with Department procedures.
                                                                                                13
       Recommendation 6: The Chief Information Officer should ensure that patch
       management roles and responsibilities are shared with relevant parties within the
       Department. The information should include responsibilities for installation and
       enforcement as well as the mandatory timeframe for the installation of patches.

        Department Response: The Department concurs with the recommendation. The
CIO has established ownership for the Patch Management Program through the ENM
Office. This program directly addresses and should satisfy this recommendation with
respect to a mandatory timeframe for the installation of patches. Under the direction of
the CIO, the ENM Office will provide IRM/IA with patch installation reports on a
continuous basis. IRM/IA will use these reports, together with other relevant
information, to assess risk and monitor compliance. The CIO will continue to coordinate
the definition and enforcement of roles and responsibilities for patch management
between IRM/IA and ENM by updating 5 FAM and 12 FAM to delineate patch
management roles and responsibilities and provide a methodology to address patch
management noncompliance. In addition, ENM executed a service level agreement with
Info Center to assist posts and bureaus with patch management responsibilities.

       OIG Comments: OIG accepts the Department’s response and considers this
recommendation resolved. OIG believes that the Department must ensure clear dissemination of
timeframes for the installation of patches because overseas posts are inconsistent in
implementation even though the Patch Management Program has existed for some time.

Roles and Responsibilities for Information Security Need Close Examination
        The Department’s management of information systems security contributes to its inability
to meet all FISMA requirements because information system security roles and responsibilities
are not sufficiently defined overseas and do not provide the necessary structure to meet
information security responsibilities either domestically or overseas. Responding to identified
management weaknesses in October 2003, the Department issued a memorandum outlining its
revised information security roles and responsibilities and as of the beginning of September
2004, is again revising the matrix, assigning responsibilities to both IRM and DS. Specifically,
IRM under the direction of the CIO, is assigned the responsibility to manage the Department’s
cyber security program, while DS is to handle physical security responsibilities. Under the
proposed revision, IRM will remain the accrediting authority. DS will have the responsibility for
addressing site certification of IT assets at all overseas sites, while IRM will address site
certification of IT assets at domestic locations.

       FISMA directs that the agency CIO has the responsibility to ensure compliance with
information systems security requirements for the agency, including:

           •   designating a senior agency information security officer to carry out CIO
               responsibilities;
           •   developing and maintaining an agency-wide information security program;
           •   developing and maintaining information security policies, procedures, and
               controls to address all applicable requirements;
           •   training and overseeing personnel with significant responsibilities for information
               security; and
           •   assisting senior agency officials in their responsibilities as outlined in the act.

                                                                                                14
       In April 2003, the Department undertook an 18-month project to certify and accredit its
major applications and general support systems. The 18-month project managed by IRM/IA and
augmented with staff resources from DS is scheduled for completion in September 2004, at
which time it is to be rolled into an ongoing program to address systems authorization for all the
Department’s systems on a 3-year cyclical basis or upon significant change. As of the first week
in September, the Department had processed and approved 164 of 179, or 92 percent of the
general support systems and major applications included in the project. Before the project, when
DS was responsible for certification and IRM was responsible for accreditation, as reported in
FY 2002, the Department had processed and approved only 4 percent of its major applications
and general support systems.2 The 18-month project has been coordinated with OMB, and has
moved the Department constructively forward to begin meeting FISMA requirements in a key
area where it previously had been failing.

         In a memorandum dated June 24, 2004, OIG informed DS and the CIO of our concerns
with the division of responsibilities in the certification process as the Department moved forward
with its system authorization program after the project. OIG strongly encouraged the
Department to maintain its forward progress and momentum by reconsidering the decision to
split the certification responsibility between DS and IRM. The Department’s proposed revision
of the roles and responsibilities splits the certification process: DS is responsible for site
certification of IT assets and IRM/IA is responsible for systems certification and major
processing center facilities. Based on the revised proposal, IRM/IA will retain the responsibility
for accreditation and the overall authorization process; however, since the roles and
responsibilities are being revised, the impact on the process remains to be determined.

        The proposed division of responsibilities currently does not allow the CIO oversight of
information system functions performed by DS personnel. For example, the October 2003
memorandum states that DS personnel are responsible for recommending and developing cyber
security policy, creating and delivering cyber security training, and carrying out operational and
tactical components of the Department’s cyber security program. In response to the
memorandum, DS established the Office of Security Integrity (DS/SI) to focus on cyber security
issues. Currently the CIO cannot ensure that the information security responsibilities performed
by DS are being conducted in an effective and efficient manner because although CIO
coordinates with DS, neither CIO nor IRM activities have a mechanism to direct or measure
what DS does to ensure information security. Similarly, under the newly proposed DS
responsibilities, the CIO has no mechanism for ensuring that certification of IT assets at more
than 200 foreign sites will be carried out in a manner to satisfy IRM/IA criteria.

        OIG questions this reassignment and believes that the success of the 18-month project
demonstrates it would be better for IRM/IA to be responsible for managing the certification and
accreditation program for systems, applications, and sites. As noted earlier in this report,
IRM/IA conducted 59 site visits in FY 2004 as part of a 3-year program to visit all sites and to
establish a Department baseline for site certifications of IT assets to begin in 2007. This
program was curtailed in August 2004 with the intent to pass the responsibility to DS. At the
time of this report, no site certification visits for inspection of IT assets were occurring, and DS
had not yet finalized a program plan for their conduct. Additionally, DS certification program
managers reported that their direction was to develop the program so it relied on remote testing
and collection of information as opposed to physically visiting the sites. Also, the DS program
management was told that no additional funds were to be provided for conducting site
certification visits.

2
    Information Security Program Evaluation ( IT/A-02-06, Sept. 2002).
                                                                                                   15
        OIG is concerned with this direction, and questions whether it will allow the Department
to meet the objectives in its coordinated efforts with OMB to have in place a viable, forward-
looking program ensuring that the necessary information security requirements are met. OIG
believes the 18-month project and the temporary reassignment of resources to IRM for
addressing the certification and accreditation backlog has proven to be effective. However,
recent decisions by the CIO and DS call for a fragmentation of the process by returning overseas
site certification of IT assets to DS. To split certification between two bureaus could very easily
lead to ineffective performance and an inability to assign accountability and, as was the case 2
years ago, jeopardizes the Department’s ability to meet FISMA requirements. The Department
senior management in its decision on this issue has recognized the absence of performance
requirements and the need for performance measures.

        Further, the Department has not provided clear guidance to overseas posts nor ensured
that the Foreign Affairs Manual (FAM) and Foreign Affairs Handbook (FAH) are up-to-date on
posts’ roles and responsibilities for meeting information security management requirements. For
example, operations officers at the Regional Information Management Centers and the Regional
Computer Security Office appear to perform similar functions in many instances. OIG
inspections have shown numerous examples of the problems in differentiating the information
systems security responsibilities of regional security officers and the information management
officers, and in some instances, functions are not being performed at all.

        IRM’s proposed funding for its information assurance activities in FYs 2005 and 2006
does not fully support IRM/IA’s proposed certification and accreditation program requirements.
In accordance with FISMA and its implementing guidance, a viable program must include all
systems and applications, not just those that are identified as general support systems and major
applications. In order to meet the program requirements, the Department must include all of its
systems and applications. As of the end of August 2004, the Department’s universe of systems,
major applications, and minor applications totaled almost 500. Although the Department showed
significant progress with its 18-month project by authorizing processing for 163 general support
systems and major applications, a viable program within the Department must address about
three times that number for certification and accreditation.

        At the beginning of September 2004, OIG found that the preliminary FY 2005 budget for
IRM/IA did not include sufficient money to meet projected costs for operating the certification
and accreditation program. While not yet finalized in early September for use in this report, the
IRM funding proposal for all of IRM/IA’s activities was approximately $12 million to cover both
FYs 2005 and 2006. OIG anticipates this proposed funding level will not support the required
certification and accreditation program as envisioned by IRM/IA or FISMA guidance. The
proposed funding, when compared to IRM/IA’s submitted budget request, is short by about $6
million in FY 2005 and $12 million in FY 2006. Also, the Department, under newly revised
draft roles and responsibilities, has reassigned the responsibility for site certification of IT assets
to DS, but as of the end of August 2004, the FY 2005 budget did not include enough money to
fund site visits to certify IT assets.

       In its response to a final draft of this report, the Department said the following:

               “We believe the structure and accountability systems are in place
               to meet FISMA certification and accreditation responsibilities
               through a shared CIO and DS approach. The CIO will articulate
               his certification and accreditation requirements and IRM and DS
                                                                                                    16
               will execute their respective responsibilities... The Department
               agrees that the CIO is responsible for all certification and
               accreditation. DS has transferred to IRM complete functional
               responsibility and the associated resources for certification and
               accreditation of all major applications and general support systems.
               The CIO has requested and DS has agreed to perform site
               activities. Where appropriate, site visits will be conducted as part
               of a joint IRM and DS team. Although performed by DS, the site
               activities will fit into the overall authorization program run by
               IRM. The CIO will continue to have oversight authority over the
               DS contribution to certification and accreditation.”

        In the final draft report responded to by the Department, OIG included two
recommendations directing that all functional activities and associated appropriations relating to
the certification and accreditation process should remain permanently with the CIO. On the
basis of the Department responses to the draft, we have chosen to withdraw those
recommendations. OIG remains concerned as stated above, and we will continue to monitor as
the Department moves forward on this initiative. OIG requests that the CIO keep us informed on
its progress in developing certification performance requirements and criteria and further
delineating the roles and responsibilities for information systems security. OIG will have the
certification and accreditation process and roles and responsibilities of information systems
security as a focal point for FY 2005 inspections and FISMA work that we will conduct.

       Recommendation 7: The Under Secretary for Management should direct that annual
       funding be established to meet the Department’s full information technology certification
       and accreditation program requirements.

      Department Response: The Department concurs with the recommendation.
IRM/IA is developing a detailed budget impact assessment that supports this
recommendation. IRM/EX is working to increase proposed funding levels to ensure the
IRM/IA program will not become noncompliant with the requisite authorities (FISMA,
OMB and congressional scoring).

         OIG Comments: OIG accepts the Department’s response but considers it to be
restrictive. If DS is to have responsibility for a portion of the certification program and process,
then it must be included in and contribute to the detailed budget plans. This recommendation is
unresolved.

       Recommendation 8: The Chief Information Officer should provide guidance and direct
       the appropriate bureaus to revise annually, or sooner if significant changes occur, the
       information security management and technical aspects of the relevant Foreign Affairs
       Manual and Foreign Affairs Handbook chapters and sections.

       Department Response: The Department concurs with the recommendation.
Information Security Management is addressed in both the Foreign Affairs Manual (the
requirements) and the Foreign Affairs Handbook. The CISO will continue to address and
coordinate policy review and development activities with appropriate bureaus, in carrying
out CIO-designated FISMA responsibilities. The same process applies to the update and
review of information security procedures for the Foreign Affairs Handbook.


                                                                                                  17
      OIG Comments: OIG accepts the Department’s response and considers this
 recommendation resolved.




         Information Security Management Deficiencies at Overseas Sites
        OIG conducted information security inspections at 34 sites during FY 2004. OIG found
numerous issues that should be addressed by the Department to ensure effective implementation
of information security at overseas sites. Besides Patch Management Program deficiencies as
described earlier, the Department’s ISSO program was not meeting its objectives; several sites
lacked required security documentation; inappropriate material was downloaded to post servers
and users’ computers; and Department configuration standards were not being met.

       ISSO Program Weaknesses

         Designating information management and information systems staff as ISSOs must be
managed diligently to maintain independent monitoring and checking of both systems
management and operations. Recent efforts by the Department, such as sending cables to
overseas posts outlining ISSO responsibilities, have been an improvement in the management of
information security roles and responsibilities; however, more must be done. For example, at
five sites visited, there was inadequate segregation between information management and
information security duties and responsibilities. At one site, the ISSO is also the information
systems officer and communications security (COMSEC) custodian. At another site, the
information program specialist responsible for the classified system is also the ISSO for that
system. In addition, one site’s information management and information systems are generally
effective, but lack independent oversight. The ISSO at this site oversees the administration of
the bureau’s unclassified and classified information systems, creating inadequate segregation of
duties because the ISSO, who has systems administration responsibilities, also has security
oversight authority for those systems.

        Further, although much of the responsibility for securing information and IT system
assets has been placed with the ISSO, in most instances these duties were assigned on a collateral
basis and were not the primary duties of the individual designated as the ISSO. The collateral
nature of these assignments reduces the time available to perform ISSO duties because the
incumbents view them as secondary. For example, at one site, the ISSO performed
responsibilities in conjunction with primary duties as a computer specialist and informed the
inspection team that duties are not performed fully because both responsibilities were
overwhelming. Further, at two sites, the ISSOs were not adequately performing their duties,
such as documenting monthly and annual reviews of randomly selected libraries, reviews of user
and system operational practice, and reviews of audit logs. One ISSO reported that there is no
time to develop written procedures to instruct users to report incidents because of the multiple
responsibilities as system administrator, COMSEC custodian, and ISSO.

        In August 2003, the Department presented a recommendation for the CIO to institute a
career field for cyber security practitioners. According to the Department, the recommended
approach will leverage existing resources to maximum effect and provide a streamlined force to
enhance compliance with federal mandates. As stated by the Department, regional security
officers and security engineering officers readily acknowledge that ISSO duties do not fall within
their core competencies. As a result, the work falls to the information management specialist,
whose ISSO responsibilities are collateral to other assigned duties. The recommendation to
                                                                                                18
the CIO included institutionalizing a skill matrix for the cyber security practitioners, developing
an outreach program managed by a seasoned ISSO liaison, and establishing a cyber security skill
code enabling growth opportunities throughout the information infrastructure.

         At the time of this report, the Department issued a cable to posts reiterating the ISSO
program responsibilities. The cable stated that posts should ensure that IRM staff are properly
assigned ISSO responsibilities before nonregulatory functions are performed. In addition to the
cable, the ISSO liaison office was established with responsibility to handle overseas and
domestic monitoring issues. The ISSO liaison was in the process of developing a mailing list
with all ISSOs to disseminate relevant ISSO information. The ISSO liaison office also ensured
that it was included in all communications between the CIO and Computer Incident Response
Team to be kept aware of any changes and issues affecting the ISSO program.

       Lack of Documentation

        OIG found that overseas posts do not have the necessary systems documentation for their
respective embassies. For example, two sites reviewed did not have a documented contingency
plan for the automated information systems as required by 12 FAM 622.3 and 12 FAM 632.3.
Further, five sites did not have an adequate site IT strategic plan that covers the embassy’s
operational, technical, and staffing needs as required by 5 FAM 121.1. Also, two sites did not
have a life cycle plan for all IT equipment, nor did they have a bureau-specific IT budget plan
that includes life cycle costs. Finally, six sites did not have a current, documented, and approved
information system security program plan for their information systems in compliance with 12
FAM 632.4 and 12 FAM 622.4.

       Inappropriate Material on Networks

       OIG found several instances of inappropriate material on embassy networks. For
example, one site had several instances of inappropriate material on the servers. This included
excessive personal use and storing of digital pictures, and downloading and using prohibited
software. Further, at two sites, the inspection team found inappropriate material on individual
systems. Information management staff was not ensuring and conducting periodic reviews of
unclassified systems, checking for inappropriate material, such as executable files, pictures, and
music files. As a result, systems could be vulnerable to viruses, which would greatly reduce the
productivity and compromise system security.

       Configuration Issues

        OIG found configuration issues at some sites visited during the inspection cycle. For
example, one site was using naming conventions for its computers and servers that did not follow
IRM’s Standard for Network Naming and Addressing guidelines. Another site had incorrect
documentation for local configuration control board decisions that did not comply with
Department guidance on testing and evaluation reports. There was also no indication at this site
that the local control board had reported all locally approved software to the Department. One
site was using software that was not approved by the control board for installation and usage. In
some instances, the Department software identified false positives.




                                                                                                19
                             Recommendations


Recommendation 1: The Office of Information Assurance and Critical Infrastructure
Protection officials should conduct regular meetings to provide a forum for the sharing of
information on information technology security vulnerabilities identified in Vulnerability
Assessment Reports.

Recommendation 2: The Office of Information Assurance should develop procedures to
ensure that information technology security findings and recommendations from external
and internal reviews are being addressed in the plans of action and milestones process.

Recommendation 3: The Chief Information Officer should inform regional bureaus and
overseas posts on the responsibilities for creating remediation for identified information
technology security vulnerabilities and the type of information required for submission to
the Department.

Recommendation 4: The Bureau of Information Resource Management should review
the applications and systems reported in the information technology application baseline
and determine those to be included in the Department’s inventory.

Recommendation 5: The Chief Information Officer should ensure that all contractor
services and facilities performing work for the Department are identified and are in
accordance with established information security requirements.

Recommendation 6: The Chief Information Officer should ensure that patch
management roles and responsibilities are shared with relevant parties within the
Department. The information should include responsibilities for installation and
enforcement as well as the mandatory timeframe for the installation of patches.

Recommendation 7: The Under Secretary for Management should direct that annual
funding be established to meet the Department’s full information technology certification
and accreditation program requirements.

Recommendation 8: The Chief Information Officer should provide guidance and direct
the appropriate bureaus to revise annually, or sooner if significant changes occur, the
information security management and technical aspects of the relevant Foreign Affairs
Manual and Foreign Affairs Handbook chapters and sections.




                                                                                       20
          Abbreviations

CIO              Chief Information Officer
CIP              Critical Infrastructure Protection
CISO             Chief Information Security Officer
COMSEC           Communications security
Department       Department of State
DS               Diplomatic Security
EMR              Electronic Medical Record
ENM              Enterprise Network Management
ESC              Employee Services Center
FISMA            Federal Information Security Management Act
GEMS             Global Employment Management System
IRM/IA           Bureau of Information Resource Management,
                 Office of Information Assurance
ISSO             Information Systems Security Officer
IT               Information technology
ITAB             IT Application Baseline
OIG              Office of Inspector General
OMB              Office of Management and Budget
PIERS            Passport Information Electronic Records
                 System
POA&M            Plans of Action and Milestones
RMS              Report Management Subsystem
SAFIRE           State Automated FISMA Information
                 Reporting Environment
SMS              Systems Management Server
US-CERT          United States Computer Emergency Readiness
                 Team




                                                          21
                                                                                   Appendix A

                         Objectives, Scope, and Methodology
        The objective of this review was to assess the overall effectiveness of the Department’s
information security program. Specifically, the review included identifying the total number of
programs and systems in the agency; identifying and reporting material weaknesses in policies,
procedures, or practices; and describing steps taken by the agency to implement and enforce the
FISMA’s CIO responsibilities and authorities. Also, the review included evaluating measures of
performance; employee training; security incidents response; and development, implementation,
and management of the agency-wide plans of action and milestones process. Further, the review
included how the agency employs system configuration management and system security
settings and maintains the Patch Management Program.
        To meet its review objectives, OIG first researched U.S. laws and federal guidance to
identify relevant criteria for implementing and managing information security programs. OIG
then reviewed its own previous reports that evaluate the Department’s information security
program to identify previous issues requiring updating. OIG also reviewed documents provided
from Department officials, including but not limited to, corrective action plans, standard
operating procedures, process guides, and system authorization plans.
        OIG met with officials from DS and IRM to discuss the Department’s procedures for
granting approval to contractor services or facilities, coordination and communication with CIP
officials, and their assessment of the Department’s implementing information system security
roles and responsibilities. OIG also met with CIP and Computer Incident Response Team
officials to obtain information about procedures for reporting security incidents and
communicating with Department officials. OIG also attended working group meetings regularly
with IRM/IA officials to obtain necessary information for completing the OMB FISMA report
and OIG independent evaluation report. Meetings were conducted with Foreign Service
Institute representatives to obtain information regarding the Department’s training program.
OIG also selected a subjective sample of the Department’s systems to evaluate the certification
and accreditation process. Further, OIG selected several reports of inspection conducted during
FY 2004 to evaluate the Department’s information security implementation, including the
POA&Ms process. This included selecting IT security recommendations and speaking with
bureau executive officials to determine what was done to address each IT security finding.

        OIG’s Information Technology Office performed this evaluation from March 2004
through September 2004. Contributors to this report were Lynn Allen, Mary Heard, James
Davies, Vandana Patel, Pamela Young, and Brandon Carter. Comments or questions about the
report can be directed to Mr. Lynn Allen at allenlx@state.gov or 703-284-2652, or to Mr. James
Davies at daviesj@state.gov or (703) 284-2673.




                                                                                              22
23
24
25
26
27
28
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
